APPENDIX CONTENTS
A. Sixth Circuit Opinion dated November 19, 2020………………………………1a
B. Western District of Michigan Order dated April 18, 2019……………………11a
C. Western District of Michigan Report and Recommendation dated February
28, 2019……………………………………………………………………………….18a
D. Michigan Supreme Court Order dated April 17, 2015………………………...39a
E. Michigan Court of Appeals Opinion dated September 25, 2012……………..40a

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 1

(2 of 11)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0663n.06
No. 19-1434
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ALAN TROWBRIDGE,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
JEFFREY WOODS, Warden,
Respondent-Appellee.

FILED
Nov 19, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE WESTERN
DISTRICT OF MICHIGAN

Before: SUHRHEINRICH, GIBBONS, and BUSH, Circuit Judges.
JULIA SMITH GIBBONS, Circuit Judge. Defendant Alan Trowbridge appeals the district
court’s denial of his petition for writ of habeas corpus in which he alleges ineffective assistance of
counsel during proceedings in a Michigan state trial court. We affirm the district court’s denial of
the writ.
I.
On August 12, 2010, Petitioner Alan Trowbridge was convicted of three counts of first
degree criminal sexual conduct (“CSC”) for raping his young daughter.

Before trial, the

prosecution made three plea offers to Trowbridge. Trowbridge rejected the first offer to plead
guilty to one count of CSC I. At the final pretrial conference on July 30, 2010, Trowbridge rejected
a second plea offer, which would have required him to plead guilty to two counts of third-degree
CSC with a habitual enhancement. This second plea offer carried a maximum sentence of 22 ½
years of imprisonment. At the time, Trowbridge was 29 years old. Finally, on the first day of the
trial, the government made a third plea offer that would have required Trowbridge to plead no

1a

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 2

contest to three counts of third-degree CSC; this offer carried a maximum sentence of 15 years
imprisonment. Trowbridge attempted to accept the no contest plea deal, but the trial court rejected
the offer because it had previously told Trowbridge that it would not entertain any further plea
agreements after Trowbridge rejected the second deal offered at the final pretrial conference.
Trowbridge proceeded to trial and was found guilty.
After trial, it was discovered that Trowbridge faced a mandatory sentence of life in prison
without the possibility of parole because he had a prior conviction of first-degree CSC. The
prosecution, defense counsel, and even the trial court were all unaware that this mandatory
sentence applied until after the trial. Despite this serious oversight, the trial court followed the
mandatory rule and sentenced Trowbridge to life imprisonment without the possibility of parole.
On appeal, Trowbridge argued that his trial counsel provided ineffective assistance by
failing to inform him before trial that he was facing a mandatory life sentence if convicted. The
Michigan Court of Appeals remanded the case for an evidentiary hearing on Trowbridge’s
ineffective assistance claim.
At the evidentiary hearing, Trowbridge’s trial counsel, Daniel Hartman, testified that in his
opinion Trowbridge would have accepted the second plea offer that carried a maximum sentence
of 22 ½ years if Trowbridge had been aware that he faced a mandatory sentence of life without the
possibility of parole.1 Hartman said that the defense and prosecution “were very close to resolving
th[e] case” and were actively exchanging plea offers up until trial. DE 10-11, Hr’g Tr., Page ID
1253. Hartman also testified, however, that Trowbridge knew that if he was found guilty at trial
the judge could set the term of imprisonment to exceed his natural life, id. at Page ID 1298, and

1

The court focused on whether Trowbridge would have accepted the second plea offer because even if he had
been properly advised he would not have been able to accept the third plea offer on the first day of trial based on the
trial court’s rules.

2a

(3 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 3

that his chance of winning at trial was “very slim,” id. at Page ID 1250. Furthermore, Hartman
told Trowbridge that CSC offenders rarely received parole and that it was likely he would serve
most, if not all, of his term of imprisonment. Trowbridge did not testify or submit an affidavit at
the evidentiary hearing.2
The government conceded that Hartman’s performance was deficient, and the court did not
question that it was “objectively unreasonable in lights of prevailing professional norms.” DE 1012, Tr. of Decision re Evidentiary Hr’g, Page ID 1334−35. However, the trial court found that
Trowbridge had not been prejudiced by the deficient performance. Central to this finding was the
court’s determination that it was “almost certain that [Trowbridge] would have made the same
decision had he known about the mandatory life sentence.” The trial court reasoned that when
Trowbridge knew that he was likely facing a minimum sentence of close to thirty years of
imprisonment and that his sentence would likely have exceeded his natural life. Thus, the trial
court concluded that it was “reasonably probable” that Trowbridge’s choice to reject the second
plea offer “would not have been different had he been properly advised.” Id. at Page ID 1338.
The Michigan Court of Appeals affirmed, finding that based on the evidence presented at
the evidentiary hearing, the court did not have “the definite and firm conviction that the trial court
made a mistake when it concluded that [Trowbridge] had not established a reasonable probability
that he would have accepted the prosecution’s final pretrial plea offer with proper advice regarding
the mandatory sentence he faced if convicted at trial.” People v. Trowbridge, No. 300460, 2012

Trowbridge later submitted an affidavit to the Michigan Supreme Court, in which he stated, “[I]f I had been
correctly advised regarding the penalty I faced, I would have accepted the prosecution’s plea offers, and I would have
done so in a timely manner. I would have made the necessary admissions of guilt on the record as required under the
plea offers.” DE 10-13, Affidavit, at Page ID 1346. The Michigan Supreme Court accepted Trowbridge’s motion to
expand the record to include the affidavit, but it was not part of the record before the Michigan Court of Appeals.
2

3a

(4 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 4

WL 4373407, at *4–5 (Mich. Ct. App. Sept. 25, 2012). The Supreme Court of Michigan declined
to hear Trowbridge’s appeal. People v. Trowbridge, 861 N.W.2d 624 (Mem.) (Mich. 2015).
On November 23, 2015, Trowbridge filed his petition in the United States District Court
for the Western District of Michigan for a writ of habeas corpus pursuant to 28 U.S.C. § 2254.
The district court held that the Michigan trial court had correctly applied the Strickland standard
to Trowbridge’s ineffective assistance of counsel claim and did not clearly err in finding that
Trowbridge had failed to show a reasonable probability that he would have accepted the second
plea offer had he been properly advised. The district court granted Trowbridge a certificate of
appealability, and Trowbridge filed this timely appeal.
II.
A.
When reviewing a district court’s grant or denial of a petition for a writ of habeas corpus,
we review its factual findings for clear error and its legal conclusions de novo. Loza v. Mitchell,
766 F.3d 466, 473 (6th Cir. 2014). A state court’s determination of factual issues “shall be
presumed to be correct” unless the petitioner rebuts this presumption “by clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1). Additionally, “[b]oth the district court and this court are bound
to apply the provisions of the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA).”
Pinchon v. Myers, 615 F.3d 631, 638 (6th Cir. 2010).
Under AEDPA, a federal court may grant habeas relief based on ineffective assistance of
counsel if the state court’s decision “was contrary to, or involved an unreasonable application of,
clearly established Federal law.” 28 U.S.C. § 2254(d)(1); see also Barnes v. Elo, 339 F.3d 496,
501 (6th Cir. 2003) (holding that ineffective assistance of counsel claims are evaluated under
§ 2254(d)(1)). A state court’s decision is an “unreasonable application” of clearly established

4a

(5 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 5

federal law if it “correctly identifies the governing legal rule but applies it unreasonably to the
facts of a particular prisoner’s case.” Williams v. Taylor, 529 U.S. 362, 407–08 (2000). “The
‘unreasonable application’ clause requires the state court decision to be more than incorrect or
erroneous”—it must be “objectively unreasonable.” Lockyer v. Andrade, 538 U.S. 63, 75 (2003).
Objectively unreasonable is a higher standard than clear error. See White v. Woodall, 572 U.S.
415, 419 (2014). To demonstrate that the state court was objectively unreasonable, the petitioner
“must show that the state court’s ruling on the claim being presented in federal court was so lacking
in justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.’” Id. at 419–20 (quoting Harrington v. Richter, 562
U.S. 86, 103 (2011)).
This court applies AEDPA deference to “the decision of ‘the last state court to issue a
reasoned opinion on the issue[s]’ raised in [the] habeas petition.” Shimel v. Warren, 838 F.3d 685,
696 (6th Cir. 2016) (first alteration in original) (quoting Joseph v. Coyle, 469 F.3d 441, 450 (6th
Cir. 2006)); see also Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018) (“[T]he federal court should
‘look through’ [an] unexplained decision to the last related state-court decision that does provide
a relevant rationale. It should then presume that the unexplained decision adopted the same
reasoning.”). When the Michigan Court of Appeals issued a detailed analysis of the merits and
the Michigan Supreme Court summarily denied review, this court has consistently reviewed the
Michigan Court of Appeals decision. See, e.g., Shimel, 838 F.3d at 695, 696. Here, the Michigan
Supreme Court denied Trowbridge’s application for leave to appeal because it was “not persuaded
that the question presented should be reviewed by” it. Michigan v. Trowbridge, 861 N.W.2d 624
(Mem) (Mich. 2015). This court has previously applied AEDPA deference to the Michigan Court
of Appeals decision when the Michigan Supreme Court has used the same language, used here to

5a

(6 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 6

deny leave for appeal. See Tackett v. Trierweiler, 956 F.3d 358, 365, 374 (6th Cir. 2020) (applying
AEDPA deference to the Michigan Court of Appeals decision after the Michigan Supreme Court
denied review because it was not “persuaded that the questions presented should be reviewed by
this Court”); Perreault v. Smith, 874 F.3d 516, 519–20 (6th Cir. 2017) (same). Thus, we will
consider the Michigan Court of Appeals decision to be the last reasoned opinion issued by a state
court and apply AEDPA deference to that court’s decision.
“[R]eview under § 2254(d)(1) is limited to the record that was before the state court that
adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011). Because the
Michigan Court of Appeals was the last state court to issue a reasoned opinion, the record before
this court is limited to the record that was before that court, meaning only the testimony from the
evidentiary hearing. Trowbridge’s affidavit, which was entered into the record after the Michigan
Court of Appeal’s decision, is not properly before this court to review.
B.
The Supreme Court’s holding in Strickland v. Washington, 466 U.S. 668 (1984), provides
the “clearly established Federal law” relevant to Trowbridge’s claim of ineffective assistance of
counsel. See Williams, 529 U.S. at 391. To prevail, Trowbridge must first “show that counsel’s
performance was deficient” by “an objective standard of reasonableness,” meaning that trial
counsel “made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” Strickland, 466 U.S. at 687–88. In this case, both parties
admit that trial counsel’s failure to advise Trowbridge that he was facing a mandatory sentence of
life without the possibility of parole amounted to a deficient performance. “Second, the defendant
must show that the deficient performance prejudiced the defense,” meaning that Trowbridge “must
show that there is a reasonable probability that, but for counsel’s unprofessional errors, the result

6a

(7 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 7

of the proceeding would have been different.” Id. at 687, 694. “A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. at 694. “[I]n the context of
plea negotiations, to demonstrate prejudice, a petitioner must establish a reasonable probability
that, but for counsel’s unprofessional errors, the outcome of the plea process would have been
different.” Byrd v. Skipper, 940 F.3d 248, 258 (6th Cir. 2019) (citing Hill v. Lockhart, 474 U.S.
52, 57 (1985)). In a case like this where AEDPA applies, we must determine whether the state
court unreasonably found that there was no reasonable probability that but for trial counsel’s error,
Trowbridge would have accepted the second plea offer.
When determining whether there was a reasonable probability that the defendant would
have pleaded guilty, the court places “special weight” on the disparity “between penalties offered
in a plea and penalties of a potential sentence.” United States v. Morris, 470 F.3d 596, 602 (6th
Cir. 2006). In Morris, the defendant rejected a plea offer of 36 to 72 months of imprisonment
because he was erroneously advised that his guideline sentence range was 62 to 68 months of
imprisonment. Id. at 598. The defendant’s actual guideline range, however, was 101 to 111
months of imprisonment if he went to trial and was found guilty. Id. at 599. The court found that
the disparity between a sentence of 62 to 68 months and a sentence of 101 to 111 months created
a reasonable probability that the defendant would have accepted the plea offer had he been properly
informed. Id. at 603; see also Magana v. Hofbauer, 263 F.3d 542, 552–53 (6th Cir. 2001) (finding
prejudice when a defendant rejected a plea offer based on his counsel’s erroneous advice that he
faced a ten-year sentence when in actuality he faced a sentence of up to forty years); United States
v. Gordon, 156 F.3d 376, 378, 381 (2d Cir. 1998) (finding prejudice where defendant rejected a
plea offer of 84 months under the erroneous assumption that he faced a maximum sentence of 120
months imprisonment; in truth, the defendant’s guideline sentence range was 262 to 327 months).

7a

(8 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 8

Here, based on a full review of the factual record, it was not objectively unreasonable for
the Michigan Court of Appeals to find that there was no reasonable probability Trowbridge would
have accepted a plea offer had he known he was facing a mandatory sentence of life without the
possibility of parole. First, there is not a significant disparity between the sentence Trowbridge
thought he was facing when he rejected the prosecution’s second plea offer and the actual sentence
he was facing. As the Michigan Court of Appeals described:
First, defense counsel’s testimony established that defendant knew his chances of
success at trial were extremely small. Second, although defense counsel
erroneously used the sentence guidelines to advise defendant regarding the
potential sentence he faced, defendant was told that if convicted he likely would be
sentenced to such a lengthy term of years that it would be tantamount to a life
sentence. Given this advice, defendant still chose to reject a plea bargain that would
have capped his maximum prison term at 22 ½ years.
People v. Trowbridge, 2012 WL 4373407, at *4. Second, Trowbridge—who was 29 at the time—
knew that if he was convicted it was unlikely that he would be paroled early. Put another way,
Trowbridge knew when he rejected the government’s plea offer on July 30 that he was facing a
sentence close to if not exceeding his natural life and that he was unlikely to be released early on
parole. Furthermore, the Michigan Court of Appeals reasoned that Trowbridge’s assertions of his
innocence at trial and his failure to present his own testimony at the evidentiary hearing suggested
an unwillingness to plead guilty before trial.3 Given the evidence before the Michigan Court of

To be sure, a defendant’s “‘repeated declarations of innocence’ alone [do not] preclude the possibility that
the defendant would have entered a guilty plea if he had been aware of the consequences of proceeding to trial.” Sawaf
v. United States, 570 F. App’x 544, 549 (6th Cir. 2014) (quoting Griffin v. United States, 330 F.3d 733, 738 (6th Cir.
2003)); see also United States v. Morris, 470 F.3d 596, 603 (6th Cir. 2006). Our court, however, has at least on one
recent occasion condoned weighing the defendant’s assertions of innocence as one factor among many to be
considered when undertaking a prejudice analysis. See Johnson v. Genovese, 924 F.3d 929, 939–40 (6th Cir. 2019)
(approving of the state court’s consideration of the petitioner’s “equivocal testimony, his consistent assertions of
innocence, and his attorney’s credited statements”). Thus, it was not objectively unreasonable for the state court to
consider Trowbridge’s testimony at trial that he was innocent when determining whether he would have pled guilty.
Furthermore, given the other evidence in the record, the Michigan Court of Appeals did not need to rely on
Trowbridge’s assertions of innocence to reach its conclusion.
3

8a

(9 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 9

Appeals, it is not objectively unreasonable for that court to conclude that Trowbridge would not
have accepted a plea offer before trial even if he knew he was facing a sentence of life without the
possibility of parole.
There is some evidence to the contrary, suggesting that Trowbridge would in fact have
accepted a plea offer if he had been fully informed of the mandatory sentence he was facing. Most
notably, Hartman testified that he believed that Trowbridge would have accepted the July 30 plea
offer if Hartman had recommended it. The Michigan Court of Appeals, however, reasonably
approved of the state trial court’s decision to give this after-the-fact speculation by Hartman little
weight. See People v. Trowbridge, 2012 WL 4373407, at *4. Also, Hartman testified that the two
sides were “very close to resolving this case,” before trial, DE 10-11, Hr’g Tr., Page ID 1253, and
that Trowbridge attempted to enter a no contest plea on the first day of trial. But Trowbridge’s
consent to a no contest plea rather than a guilty plea could be viewed as evidence that Trowbridge
would only have accepted a plea offer if he did not have to plead guilty. Ultimately, the existence
of some evidence in Trowbridge’s favor does not mean that the Michigan Court of Appeals was
objectively unreasonable to deny his ineffective assistance of counsel claim given the entirety of
the record.
In sum, our task under AEDPA review is not to decide whether the state court was correct,
or whether we would have decided the case differently. See Lockyer, 538 U.S. at 75−76. We must
deny the writ unless the state court’s decision was objectively unreasonable, meaning that there is
no possibility for fairminded disagreement. Woodall, 572 U.S. at 419−20. In this case, the
Michigan Court of Appeals gave a reasoned explanation for its finding that there was no reasonable
probability that, but for the deficient performance of his trial counsel, Trowbridge would have pled
guilty. Based on the record before that court, we cannot say that its decision was objectively

9a

(10 of 11)

Case: 19-1434

Document: 41-2

Filed: 11/19/2020

Page: 10

unreasonable. Accordingly, Trowbridge has not met the high standard necessary to receive habeas
relief.
III.
The district court’s denial of a writ of habeas corpus is affirmed.

10a

(11 of 11)

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1656 Page 1 of 7

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION

ALAN STARR TROWBRIDGE,
Petitioner,
v.

Case No. 2:15-CV-186

JEFFREY WOODS,

HON. GORDON J. QUIST

Respondent.
____________________________/
ORDER REJECTING THE REPORT AND RECOMMENDATION
AND DENYING PETITIONER’S HABEAS PETITION
The matter before the Court is a habeas corpus petition filed by Petitioner, Alan Starr
Trowbridge, pursuant to 28 U.S.C. § 2254. The matter was referred to Magistrate Judge Timothy
P. Greeley, 1 who issued a Report and Recommendation (R & R) on February 28, 2019,
recommending that the Court grant Trowbridge’s petition. (ECF No. 30.) Respondent, Jeffrey
Woods, timely filed objections to the R & R. (ECF No. 31.)
Upon receiving objections to an R & R, the district judge “shall make a de novo
determination of those portions of the report or specified proposed findings or recommendations
to which objection is made.” 28 U.S.C. § 636(b)(1). This Court may accept, reject, or modify any
or all of the magistrate judge’s findings or recommendations. 28 U.S.C. § 636(b)(1); Fed. R. Civ.
P. 72(b).
After conducting a de novo review of the R & R, the objections, and the pertinent portions
of the record, the Court concludes that the R & R should be rejected and Trowbridge’s habeas
petition should be denied.

1

Judge Greeley recently retired on March 14, 2019.

11a

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1657 Page 2 of 7

I. Background
In 2010, Trowbridge was charged with five counts of first-degree criminal sexual conduct
(CSC-I), in violation of MCL 750.520b(2)(c). On August 12, 2010, a jury convicted Trowbridge
of three counts of CSC-I for having sex with his six-year-old daughter. At no time prior to trial
did the prosecution, defense counsel, or the court realize that Trowbridge would be subject to a
mandatory minimum of life imprisonment without the possibility of parole if convicted of CSC-I
because Trowbridge had previously been convicted of CSC-IV for an incident involving a fiveyear-old boy.
In connection with the 2010 charges, the prosecution made several plea offers to
Trowbridge. In May 2010, the prosecution offered to allow Trowbridge to plead guilty to one
count of CSC-I. Trowbridge rejected that offer. On July 30, 2010, at the final pretrial conference,
the prosecution offered to allow Trowbridge to plead guilty to two counts of CSC-III as a habitual
offender, with an agreement that his sentence would be capped at 22 ½ years. Trowbridge rejected
that offer. On August 9, 2010, the first day of trial, the prosecution offered to allow Trowbridge
to plead no contest to three counts of CSC-III with no habitual offender enhancement, which would
carry a maximum sentence of 15 years. Trowbridge accepted the final offer, but the court rejected
the plea deal because the deal would violate the court’s policies of not accepting plea deals after
the pretrial conference and not accepting no contest pleas outside of certain circumstances.
Trowbridge proceeded to trial and was convicted. At sentencing, the trial judge informed
Trowbridge that he was subject to the mandatory minimum sentence of life imprisonment without
parole, which was when Trowbridge first learned of the penalty he faced for the crime of which
he was charged. The trial judge sentenced Trowbridge to three terms of life imprisonment without
parole.

12a

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1658 Page 3 of 7

Trowbridge appealed his conviction to the Michigan Court of Appeals. The Michigan
Court of Appeals remanded to the trial court for an evidentiary hearing on Trowbridge’s claim that
he was denied effective assistance of counsel when his defense attorney did not advise him of the
mandatory minimum sentence he faced so that he could adequately evaluate the plea offers he
received. The trial court denied Trowbridge’s claim of ineffective assistance of counsel based on
the finding that Trowbridge suffered no prejudice because Trowbridge had not shown that it was
reasonably probable that he would have accepted the July 30, 2010, plea offer had he known the
penalty he would face if convicted at trial. Likewise, the Michigan Court of Appeals concluded
that although defense counsel failed to properly advise Trowbridge that he was facing mandatory
life without parole, Trowbridge suffered no prejudice because he failed to show that he would have
accepted the July 30, 2010, plea offer if he had known that he would receive mandatory life without
parole if convicted. The Michigan Supreme Court denied leave to appeal.
II. Legal Standards
Habeas Relief
Pursuant to the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA),
Trowbridge is not entitled to habeas relief from his state court conviction with respect to any claim
that was adjudicated on the merits unless the adjudication of the claim “(1) resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or (2) resulted in a decision that was
based on an unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d).
AEDPA limits the source of law—for the purposes of determining clearly established
federal law—to “holdings, as opposed to dicta” of Supreme Court decisions “as of the time of the
relevant state-court decision.” Williams v. Taylor, 529 U.S. 362, 412, 120 S. Ct. 1495, 1523

13a

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1659 Page 4 of 7

(2000). The Supreme Court held that a decision of a state court is “contrary to” clearly established
federal law “if the state court arrives at a conclusion opposite to that reached by this Court on a
question of law or if the state court decides a case differently than this Court has on a set of
materially indistinguishable facts.” Id. at 413, 120 S. Ct. at 1523. A state court adjudication is
considered an “unreasonable application” of clearly established federal law “if the state court
identifies the correct governing legal principle from [the Supreme] Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Id. A state court’s
application of clearly established federal law is not unreasonable “simply because [the federal]
court concludes in its independent judgment that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly. Rather, that application must also be
unreasonable.” Id. at 411, 120 S. Ct. at 1522.
Factual findings of the state court made after a hearing on the merits are entitled to a
presumption of correctness. 28 U.S.C. § 2254(e)(1); Sumner v. Mata, 449 U.S. 539, 546, 101 S.
Ct. 764, 769 (1981). Trowbridge has the burden of rebutting the presumption of correctness by
clear and convincing evidence. 28 U.S.C. § 2254(e)(1).
Ineffective Assistance of Counsel
Ineffective assistance of counsel claims are analyzed under the two-prong test set forth in
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984). Under the first prong, the
defendant must show that counsel’s performance was “deficient.” That is, the defendant must
demonstrate that “counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth Amendment.” Id. at 687, 104 S. Ct. at 2064. The second
prong requires the defendant to show that counsel’s deficient performance prejudiced his
defense—“that counsel’s errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable.” Id.

14a

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1660 Page 5 of 7

The Supreme Court has held that:
To show prejudice from ineffective assistance of counsel where a plea offer has
lapsed or been rejected because of counsel’s deficient performance, defendants
must demonstrate a reasonable probability they would have accepted the earlier
plea offer had they been afforded effective assistance of counsel. Defendants must
also demonstrate a reasonable probability the plea would have been entered without
the prosecution canceling it or the trial court refusing to accept it, if they had the
authority to exercise that discretion under state law. To establish prejudice in this
instance, it is necessary to show a reasonable probability that the end result of the
criminal process would have been more favorable by reason of a plea to a lesser
charge or a sentence of less prison time.
Missouri v. Frye, 566 U.S. 134, 147, 132 S. Ct. 1399, 1409 (2012).
III. Analysis
The State concedes that Trowbridge should have been told that his conviction at trial would
result in a mandatory sentence of life imprisonment without parole. Thus, defense counsel’s
performance was deficient, satisfying the first prong of the Strickland test.
The focus of the state court adjudication and Respondent’s objections is the second prong
of the Strickland test—whether Trowbridge suffered prejudice as a result of defense counsel’s
deficient performance. After the hearing on Trowbridge’s claim of ineffective assistance of
counsel, the state court held that Trowbridge had not suffered prejudice because there was no
reasonable probability that Trowbridge would have accepted the July 30, 2010, plea offer if he had
known that he faced mandatory life imprisonment without parole if convicted at trial.
At the hearing, Trowbridge’s defense counsel testified regarding the advice that he gave
Trowbridge prior to trial. Defense counsel told Trowbridge that he had very little chance of
succeeding at trial, only a three to five percent chance of acquittal. Defense counsel also advised
Trowbridge that if convicted he would face a lengthy sentence that could exceed his natural life
and that Trowbridge was unlikely to be paroled early. In the face of that information, Trowbridge
chose to decline the July 30, 2010, plea offer that would have capped his maximum sentence at
22 ½ years.

15a

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1661 Page 6 of 7

Moreover, the trial court found that Trowbridge was unlikely to accept the July 30, 2010,
plea offer even if he knew the penalties he faced because Trowbridge was unwilling or unlikely to
provide a factual basis for a guilty plea as required under Michigan law. The only plea offer that
Trowbridge attempted to accept was one in which he would plead no contest rather than guilty.
Trowbridge not only maintained his innocence by pleading not guilty, but took the stand at trial to
deny the allegations.
The trial court correctly applied the Strickland standard to Trowbridge’s ineffective
assistance of counsel claim. The trial court’s application of Strickland was not unreasonable when
the trial court determined that Trowbridge had not suffered prejudice based on the finding that
Trowbridge failed to show that there was a reasonable probability that he would have accepted the
July 30, 2010, plea offer if he had been properly advised that he faced a mandatory sentence of life
imprisonment without parole. State court factual findings are presumed correct, and Trowbridge
must offer clear and convincing evidence to overcome that presumption. Trowbridge has not
offered clear and convincing evidence to rebut the trial court’s finding that there was not a
reasonable probability that Trowbridge would have accepted the July 30, 2010, plea offer if not
for the deficient performance of defense counsel. Thus, Trowbridge has not provided a basis for
this Court to grant habeas relief.
IV. Certificate of Appealability
Pursuant to 28 U.S.C. § 2253(c)(2), the Court must also determine whether a certificate of
appealability should be granted. A certificate should issue if Trowbridge has demonstrated a
“substantial showing of a denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The Sixth
Circuit has disapproved issuance of blanket denials of a certificate of appealability. Murphy v.
Ohio, 263 F.3d 466, 467 (6th Cir. 2001). Rather, the district court must “engage in a reasoned
assessment of each claim” to determine whether a certificate is warranted. Id. at 467. Each issue

16a

Case 2:15-cv-00186-GJQ-MV ECF No. 33 filed 04/18/19 PageID.1662 Page 7 of 7

must be considered under the standards set forth by the Supreme Court in Slack v. McDaniel, 529
U.S. 473, 120 S. Ct. 1595 (2000); Murphy, 263 F.3d at 467. Therefore, the Court has considered
Trowbridge’s claim under the Slack standard.
Under Slack, 529 U.S. at 484, 120 S. Ct. at 1604, to warrant a grant of the certificate, “[t]he
petitioner must demonstrate that reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Because the R & R recommended that this Court
grant Trowbridge’s habeas petition but this Court rejected that recommendation, the Court
concludes that reasonable jurists could and did debate this issue. Thus, the Court will grant a
certificate of appealability.
V. Conclusion
For the foregoing reasons,
IT IS HEREBY ORDERED that the February 28, 2019, Report and Recommendation
(ECF No. 30) is rejected.
IT IS FURTHER ORDERED that Trowbridge’s habeas corpus petition (ECF No. 1) is
denied.
IT IS FURTHER ORDERED that Petitioner is granted a certificate of appealability.
A separate judgment will enter.
This case is concluded.

Dated: April 18, 2019

/s/ Gordon J. Quist
GORDON J. QUIST
UNITED STATES DISTRICT JUDGE

17a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1620 Page 1 of 21

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION

ALAN STARR TROWBRIDGE,
Petitioner,
v.

Case No. 2:15-cv-186
HON. GORDON J. QUIST

JEFFREY WOODS,
Respondent.
________________________________/

REPORT AND RECOMMENDATION
Petitioner Alan Starr Trowbridge filed this petition for writ of habeas corpus
challenging his jury conviction for three counts of first-degree criminal sexual conduct. 1 Petitioner
was sentenced to three terms of life in prison without the possibility of parole. The respondent has
filed an answer and has complied with Rule 5 of the Rules Governing Section 2254 Cases in the
United States District Courts. The parties have briefed the issues and the matter is now ready for
decision.
Petitioner alleges that:
I. Petitioner was denied his federal constitutional right to the effective
assistance of counsel when counsel erroneously told the Petitioner that the
Michigan sentencing guidelines applied to his case when in fact the charge
carried a mandatory penalty of non-paroleable life. Said error resulted in
no plea offer being timely accepted, and Petitioner was denied his right to
effective counsel as required in the Lafler decision and in violation of the
VI and XIV Amendment of the Constitution of the United States.

1

Petitioner was convicted by a jury of having sex with his 6 year old daughter. The horrendousness of his crimes
makes sympathy for Petitioner impossible. Sympathy is not what guides this court in ruling on the pending petition.

18a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1621 Page 2 of 21

The factual circumstances are mostly undisputed. Petitioner was convicted on
August 12, 2010, by a Grand Traverse County jury of three counts of first degree criminal sexual
conduct. At the final pretrial conference on July 30, 2010, Petitioner was offered a plea deal that
would impose a maximum 22 ½ year term of imprisonment if he pleaded guilty to two counts of
third degree criminal sexual conduct and as a habitual offender. Petitioner rejected the offer. On
August 9, 2010, the government offered a deal for Petitioner to plead no contest to three counts of
third degree criminal sexual conduct with a maximum sentence of 15 years imprisonment.
Petitioner accepted that deal, but the trial court judge refused to consider the plea because it
violated his policy of accepting plea deals after the pretrial conference date and accepting a no
contest plea.
It is undisputed that neither the prosecutor, the trial judge, nor defense counsel were
aware that Petitioner was facing mandatory lifetime sentences without parole if he was convicted
of first degree criminal sexual conduct. In denying the motion after remand, the trial court stated:
“[Defense counsel] just missed it and did not know about the statute that has a mandatory minimum
for these circumstances. In fairness . . . I don’t think the People knew about it either. And, I did
not know about it until we stumbled on it a few days before sentencing.” 2 (ECF No. 10-12,
PageID.1225). Prior to trial, defense counsel informed Petitioner that he would likely lose at trial
based upon the evidence against him, but that he would receive a sentence that allowed for parole.
Defense counsel informed Petitioner that it was likely that he would have to serve close to his
maximum sentence before he was considered for parole. It was not until after trial that Petitioner
was informed of the penalties he faced for conviction of the crime charged.

2

MCR 6.104(E)(1) provides that during arraignment the judge must inform the accused of the maximum possible
prison sentence and any mandatory minimum sentence required by law.

19a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1622 Page 3 of 21

Petitioner learned at sentencing that his conviction required mandatory life
imprisonment without parole.

The trial judge sentenced Petitioner to three terms of life

imprisonment without parole. Petitioner appealed his conviction to the Michigan Court of
Appeals. The Michigan Court of Appeals remanded for an evidentiary hearing on the issue of
ineffective assistance of counsel. The trial court denied Petitioner’s claim of ineffective assistance
of counsel finding no prejudice. The trial judge explained:
But, in any event, in this case it appears to me almost certain that the
defendant would have made the same decision had he known about
the mandatory life sentence. My reason for that conclusion is that
the defendant was advised that the likely guidelines which deal with
the minimum would be on the order of 285 months plus 25 percent
for the habitual offender, which is pretty close to the 30 years that
were the actual guidelines as we scored them, that's basically 30
years. So even without a departure the minimum sentence would
have been on the order of 30 years. And, of course, Mr. Hartman did
advise Mr. Trowbridge that for a substantial and compelling reason
the judge could depart, and having a prior sex offense with a small
child when you just have been convicted of another sex offense with
a small child is a great big departure -- obvious departure possibility,
and likelihood. But, in any event, even without a departure the
minimum sentence would be on the order of 30 years.
Under the rules of People versus Tanner, the maximum sentence
would have to be at least 45 years, and likely would have been set
much higher because the two-thirds rule is not a binding rule it just
says the minimum has to be no more than two-thirds of the
maximum. If the minimum is 30 years then the maximum has to be
at least 45, which means the defendant would be 74 years old when
the maximum arrives under best circumstances. And, of course, Mr.
Hartman did testify he advised all his CSC clients, and this
defendant specifically, that usually the people in prison for CSC
conducts are held to near their maximum. So best case scenario is
he gets out around 74. And, if the judge chooses, as I undoubtedly
would have, instead of 45 the minimum the smallest maximum
sentence permitted by law, I could have and would likely have said
60 or 80 or something that would clearly be beyond his natural life
so the parole board had that possibility. But, best case scenario is 74,
and of course that could very well, as Mr. Hartman advised
defendant, I could very well have departed above guidelines given
the sex offense of the very similar type. He took the risk under bad

20a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1623 Page 4 of 21

advice he received, he took the risk of conviction that amounts to a
life sentence. Had he known it was mandatory life I suggest to you
with the dynamics of the decision there is very little difference. The
decision would very likely have been the same, and is reasonably
probable, therefore that decision would not have been different had
he been properly advised. It is not reasonably probable that he would
have accepted the plea at final conference.
(ECF No. 10-12, PageID.1336-1337). The Michigan Court of Appeals concluded that although
counsel failed to properly advise Petitioner that he was facing mandatory life without parole,
Petitioner suffered no prejudice because he failed to show that he would have accepted the July
30, 2010, plea offer even if he had known that he would receive mandatory life without parole
sentences if he lost at trial. The Michigan Supreme Court denied leave to appeal in a standard
order. 3
In April of 1996, the Antiterrorism and Effective Death Penalty Act of 1996
(AEDPA) became effective. Because this petition was filed after the effective date of the AEDPA,
this Court must follow the standard of review established in that statute. Pursuant to the AEDPA,
an application for writ of habeas corpus on behalf of a person who is incarcerated pursuant to a
state conviction cannot be granted with respect to any claim that was adjudicated on the merits in
state court unless the adjudication: “(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established federal law as determined by the Supreme Court
of the United States; or (2) resulted in a decision that was based upon an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding.” 28
U.S.C. § 2254(d).

3

The Michigan Supreme Court heard oral argument on Petitioner’s application for leave to appeal, but denied the
application because “we are not persuaded that the question presented should be reviewed.” (ECF No. 10-16,
PageID.1483).

21a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1624 Page 5 of 21

The AEDPA limits the source of law to cases decided by the United States Supreme
Court. 28 U.S.C. § 2254(d). This provision marks a “significant change” and prevents the district
court from looking to lower federal court decisions in determining whether the state decision is
contrary to, or an unreasonable application of, clearly established federal law. Herbert v. Billy,
160 F.3d 1131, 1134 (6th Cir. 1998). To justify a grant of habeas corpus relief under this provision
of the AEDPA, a federal court must find a violation of law “clearly established” by holdings of
the Supreme Court, as opposed to its dicta, as of the time of the relevant state court decision.
Williams v. Taylor, 529 U.S. 362, 412 (2000). The Supreme Court held that a decision of the state
court is “contrary to” such clearly established federal law “if the state court arrives at a conclusion
opposite to that reached by this Court on a question of law or if the state court decides a case
differently than this Court has on a set of materially indistinguishable facts.” Id. A state court
decision will be deemed an “unreasonable application” of clearly established federal law “if the
state court identifies the correct governing legal principle from this Court’s decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Id. A federal habeas court
may not find a state adjudication to be “unreasonable” “simply because that court concludes in its
independent judgment that the relevant state-court decision applied clearly established federal law
erroneously or incorrectly.” Id. at 412. Rather, the application must also be “unreasonable.” Id.
Further, the habeas court should not transform the inquiry into a subjective one by inquiring
whether all reasonable jurists would agree that the application by the state court was unreasonable.
Id. at 410 (disavowing Drinkard v. Johnson, 97 F.3d 751, 769 (5th Cir. 1996)). Rather, the issue
is whether the state court’s application of clearly established federal law is “objectively
unreasonable.” Williams, 529 U.S. at 409.

22a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1625 Page 6 of 21

The AEDPA requires heightened respect for state factual findings. Herbert v. Billy,
160 F.3d 1131, 1134 (6th Cir. 1998). The habeas corpus statute has long provided that the factual
findings of the state courts, made after a hearing, are entitled to a presumption of correctness. This
presumption has always been accorded to findings of state appellate courts, as well as the trial
court. See Sumner v. Mata, 449 U.S. 539, 546 (1981); Smith v. Jago, 888 F.2d 399, 407 n.4 (6th
Cir. 1989), cert. denied, 495 U.S. 961 (1990). Under the AEDPA, a determination of a factual
issue made by a state court is presumed to be correct. The petitioner has the burden of rebutting
the presumption of correctness by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); see also
Warren v. Smith, 161 F.3d 358, 360-61 (6th Cir. 1998), cert. denied, 527 U.S. 1040 (1999).
The Michigan Court of Appeals summarized the facts of this case:
In 2010, defendant was arrested and charged with five counts of
CSC I after his six-year-old daughter disclosed that defendant had
inserted his penis into her vagina, mouth, and anus. [fn. two charges
were dismissed at trial when the victim failed to testify about them].
Prior to this arrest, defendant had previously pleaded guilty to
fourth-degree CSC for an incident involving a five-year-old boy.
Because of this prior conviction, defendant faced a mandatory
sentence of life without possibility of parole if convicted of CSC I.
MCL 750.520b(2)(c), as amended by 2006 PA 165 and 2006 PA
169. The charging documents, however, did not mention the
mandatory sentence of life without parole. Neither the parties nor
the trial court were aware of the mandatory sentence provision until
after the conclusion of defendant’s trial.
Before trial, the prosecution made several plea offers to defendant.
In May 2010, the prosecution offered to allow defendant to plead
guilty to one count of CSC I. Defendant rejected that offer and, on
July 30, 2010, at a final pretrial, the prosecution offered a plea
agreement allowing defendant to plead guilty to two counts of thirddegree CSC as a second offender. Defendant rejected this offer as
well. On the first day of trial, August 9, 2010, the parties informed
the court they had reached a plea agreement for defendant to plead
no contest to three counts of third-degree CSC with no habitual
offender enhancement. The trial court ruled it would not waive its
policy of not entertaining a plea to a reduced charge after the final
pretrial.

23a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1626 Page 7 of 21

At the conclusion of defendant’s trial, the jury found defendant
guilty of all three charged counts of CSC I submitted to them. At
sentencing, the trial court judge informed the parties that he had
discovered that MCL 750.520b(2)(c) mandated that defendant be
sentenced to life without parole for all three counts of first-degree
CSC. Defendant moved to adjourn the sentencing to brief the effect
of lack of notice to defendant of the mandatory sentence. At the
next hearing, the trial court sentenced defendant to three terms of
life without parole.
Following sentencing, defendant appealed to this Court and moved
to remand to the trial court for an evidentiary hearing to make a
record regarding his claim of ineffective assistance of counsel,
which this Court granted. At the evidentiary hearing in the trial
court, defendant’s trial counsel testified that he was unaware that
defendant was facing a mandatory sentence of life without parole
until the original sentencing date and that he had advised defendant
throughout the plea bargaining process about potential sentences
using the sentencing guidelines. Trial counsel further testified that
he told defendant that his chances of succeeding at trial were “three
to five percent” and that, if he was convicted, defendant faced a
minimum prison sentence of thirty years and a maximum sentence
that could exceed natural life. Trial counsel also testified that he told
defendant that sex offenders typically serve close to their maximum
sentence and are rarely paroled early. Trial counsel also testified that
in his opinion, if defendant were aware he would be sentenced to
life without parole if convicted at trial, defendant would have
accepted the final pretrial offer if counsel had recommended it.
Defense counsel did not say whether he recommended that
defendant accept the July 30 plea offer and acknowledged it was
defendant’s choice to proceed to trial. Defense counsel further
testified he did not know whether defendant would have pleaded
guilty rather than no contest under the plea offer made the first day
of trial if the trial court had waived the plea cut-off date but would
not accept a no-contest plea.
Michigan Court of Appeals decision (ECF No. 10-15, PageID.1354-1355) (footnotes omitted).
Petitioner claims that his federal constitutional right to effective assistance of
counsel was denied by his counsel’s failure to notify him of the mandatory penalty of life without
parole. In Strickland v. Washington, 466 U.S. 668, 687-88 (1984), the Supreme Court established
a two-prong test by which to evaluate claims of ineffective assistance of counsel. To establish a

24a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1627 Page 8 of 21

claim of ineffective assistance of counsel, the petitioner must prove: (1) that counsel’s performance
fell below an objective standard of reasonableness; and (2) that counsel’s deficient performance
prejudiced the defendant resulting in an unreliable or fundamentally unfair outcome.
To demonstrate that he received ineffective assistance of counsel,
[petitioner] must show, under the two-prong test enunciated in
Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984), that counsel’s assistance was deficient and that
the deficiency prejudiced his defense. A failure to establish either
deficient performance or resulting prejudice defeats the claim. Id. at
697, 104 S.Ct. 2052. To demonstrate deficient performance, a
habeas applicant must show that “counsel made errors so serious
that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” Id. at 687, 104 S.Ct. 2052. To
demonstrate prejudice, a “defendant must show that there is a
reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different,” id. at 694,
104 S.Ct. 2052, and that counsel’s errors were so serious that they
rendered the proceedings unfair or the result unreliable. Lockhart v.
Fretwell, 506 U.S. 364, 372, 113 S.Ct. 838, 122 L.Ed.2d 180 (1993).
United States v. Johnson, 398 F. App’x 964, 967 (5th Cir. 2010). A court considering a claim of
ineffective assistance must “indulge a strong presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance.” Strickland, 466 U.S. at 689. The defendant
bears the burden of overcoming the presumption that the challenged action might be considered
sound trial strategy. Id. (citing Michel v. Louisiana, 350 U.S. 91, 101 (1955)); see also Nagi v.
United States, 90 F.3d 130, 135 (6th Cir. 1996) (holding that counsel’s strategic decisions were
hard to attack). The court must determine whether, in light of the circumstances as they existed
at the time of counsel’s actions, “the identified acts or omissions were outside the wide range of
professionally competent assistance.” Strickland, 466 U.S. at 690. Even if a court determines
that counsel’s performance was outside that range, the defendant is not entitled to relief if
counsel’s error had no effect on the judgment. Id. at 691.

25a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1628 Page 9 of 21

Moreover, as the Supreme Court repeatedly has recognized, when a federal court
reviews a state court’s application of Strickland under § 2254(d), the deferential standard of
Strickland is “doubly” deferential. Harrington v. Richter, 562 U.S. 86, 105 (2011) (citing Knowles
v. Mirzayance, 556 U.S. 111, 123 (2009)); see also Burt v. Titlow, 571 U.S. 12, 15 (2013); Cullen
v. Pinholster, 131 S. Ct. 1388, 1403 (2011); Premo v. Moore, 562 U.S. 115, 122 (2011). In those
circumstances, the question before the habeas court is “whether there is any reasonable argument
that counsel satisfied Strickland’s deferential standard.” Id.; Jackson v. Houk, 687 F.3d 723, 74041 (6th Cir. 2012) (stating that the “Supreme Court has recently again underlined the difficulty of
prevailing on a Strickland claim in the context of habeas and AEDPA . . . .”) (citing Harrington,
562 U.S. at 102). The failure of Petitioner’s counsel to inform Petitioner that he was facing a
mandatory life sentence was ineffective. It is a basic precept of the Constitution that every
defendant has the right to learn the charges against the defendant and the penalties the defendant
is facing. A defendant must be informed of any mandatory minimum sentences. If a defendant
pleads guilty to an offense without accurately being informed of the penalty the defendant is facing,
counsel has been ineffective and the error is not harmless. United States v. Hogg, 723 F.2d 730
(6th Cir. 2012).
Establishing prejudice requires more than a showing that the sentence Petitioner
could have received under the plea bargain would have been more favorable than the sentence that
he actually received. In McGowan v. Burt, 788 F.3d 510 (6th Cir. 2015), the Sixth Circuit held
that a district court incorrectly ruled in favor of habeas review for a petitioner that did not accept
a plea due to claimed ineffective assistance of counsel. Id. at 511. The district court ruled that
there was prejudice solely on the fact that the sentence the petitioner received was more
unfavorable to the petitioner than it would have been if he had accepted the plea. The Sixth Circuit

26a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1629 Page 10 of 21

rejected that conclusion and held that the state court clearly identified a basis for concluding that
counsel’s performance fell within the wide range of permissible conduct and that the state court’s
determination that the inmate was not prejudiced was a reasonable determination. Id. at 517-519.
Under limited circumstances a presumption of prejudice may arise where counsel
performance falls below an objective standard. Those circumstance are limited to when: “(1)
there exists a ‘complete denial of counsel’ or a denial of counsel ‘at a critical stage’ of the
defendant’s trial; (2) defense counsel fails to ‘subject the prosecution’s case to a meaningful
adversarial testing’; or (3) counsel ‘is called upon to render assistance where competent counsel
very likely could not.’” Moss v. United States, 323 F.3d 445, 455 (6th Cir. 2003) (quoting United
States v. Cronic, 466 U.S. 648, 658-659 (1984)). The presumption of prejudice also arises “where
the defendant demonstrates that his attorney actively represented conflicted interests.” Id. Some
constitutional errors are considered structural “affecting the framework within which the trial
proceeds, rather than simply an error in the trial process itself. ‘Without these basis protections, a
criminal trial cannot reliably serve its function as a vehicle for determination of guilt or innocence,
and no criminal punishment may be regarded as fundamentally fair.” Arizona v. Fulminante, 499
U.S. 279, 310 (1991) (citing Rose v. Clark, 478 U.S. 570, 577-578 (1986)). Whether fundamental
error is entitled to a presumption of prejudice is not clear.
For example, no showing of prejudice is necessary “if the accused is
denied counsel at a critical stage of his trial,” United States v. Cronic,
466 U.S. 648, 659 (1984), or left “entirely without the assistance of
counsel on appeal,” Penson v. Ohio, 488 U. S. 75, 88 (1988).
Similarly, prejudice is presumed “if counsel entirely fails to subject
the prosecution’s case to meaningful adversarial testing.” Cronic,
466 U.S., at 659. And, most relevant here, prejudice is presumed
“when counsel’s constitutionally deficient performance deprives a
defendant of an appeal that he otherwise would have taken.” FloresOrtega, 528 U.S., at 484.

27a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1630 Page 11 of 21

Garza v. Idaho, 586 U.S. ___, No. 17-1026, slip op. at 3-4 (2019) (presumption of prejudice applies
where counsel fails to file an appeal requested by a defendant even where the plea agreement
contained an appeal waiver).
In Lafler v. Cooper, 566 U.S. 156 (2012), the Supreme Court held that the
Strickland standard applies to claims alleging that counsel was ineffective in advising a defendant
about a plea offer. See Rodriguez-Penton v. United States, 905 F.3d 481, 489 (6th Cir. 2018)
(“when the Government chooses to enter into plea negotiations, the Constitution requires that
defendants receive effective assistance in navigating that crucial process.”). As in Hill v. Lockhart,
474 U.S. 52, 58 (1985), the prejudice prong of Strickland turns on whether, absent counsel’s errors,
the result of the plea process would have been different. See Lafler, 566 U.S. at 163-167. In such
circumstances, a petitioner must establish a reasonable probability that he would have accepted
the plea offer absent ineffective assistance of counsel. Missouri v. Frye, 566 U.S. 134, 147 (2012).
The Lafler Court thoroughly rejected the argument that a subsequent fair trial renders counsel’s
earlier ineffective assistance irrelevant. Lafler, 566 U.S. at 168-169. “Even if the trial itself is free
from constitutional flaw, the defendant who goes to trial instead of taking a more favorable plea
may be prejudiced from either a conviction on more serious counts or the imposition of a more
severe sentence.” Id. at 166. Rather, a petitioner must establish that “the outcome of the plea
process would have been different with competent advice.” Id. at 163.
“To show prejudice from ineffective assistance of counsel where a plea offer has
lapsed or been rejected because of counsel’s deficient performance, defendants must demonstrate
a reasonable probability they would have accepted the earlier plea offer had they been afforded
effective assistance of counsel. Defendants must also demonstrate a reasonable probability the
plea would have been entered without the prosecution canceling it or the trial court refusing to

28a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1631 Page 12 of 21

accept it.” Missouri v. Frye, 566 U.S. at 147. The Supreme Court explained that a petitioner must
establish four factors to show ineffective assistance of counsel for failing to properly give advice
that led to a rejected plea offer:
In these circumstances a defendant must show that [1] but for the
ineffective advice of counsel there is a reasonable probability that
the plea offer would have been presented to the court (i.e., [2] that
the defendant would have accepted the plea and the prosecution
would not have withdrawn it in light of intervening circumstances),
[3] that the court would have accepted its terms, and [4] that the
conviction or sentence, or both, under the offer's terms would have
been less severe than under the judgment and sentence that in fact
were imposed.
Id. at 164.
The petitioner in Lafler challenged his counsel’s performance in advising him to
reject a plea offer and proceed to trial. The petitioner was charged with assault with intent to
murder, felon in possession of a firearm, possession of a firearm in commission of a felony,
possession of marijuana, and for being a habitual offender. Twice, petitioner rejected plea deals
that would limit his sentence to 51 to 85 months in exchange for pleading guilty to two charges.
The petitioner initially informed the court that he was guilty and would accept the plea bargain,
but later rejected each offer based upon the advice of his counsel. The petitioner, again, rejected
a less favorable deal on the first day of trial. Petitioner proceeded to trial, was convicted on each
count, and received a mandatory minimum sentence of 185 to 360 months imprisonment. On
Appeal, the Michigan Court of Appeals rejected the petitioner’s ineffective assistance of counsel
claim on the basis that he had knowingly and intelligently rejected the plea offers and elected to
go to trial. Because the Michigan appellate courts applied the wrong standard and failed to apply
Strickland standards to petitioner’s ineffective assistance of counsel claims, the AEDPA did not
bar the requested relief.

29a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1632 Page 13 of 21

The Supreme Court remanded Lafler with instructions requiring the prosecutor to
reoffer the plea proposal to allow the judge to exercise discretion whether to vacate the conviction
and to accept the plea or to leave the conviction undisturbed. The Supreme Court explained that
where the charges that a defendant would have admitted to are the same charges that the jury based
the defendant’s conviction upon, a resentencing based upon the original plea deal is all that is
required to correct the ineffective assistance of counsel that caused the plea rejection. However,
where the plea offer was based upon guilty pleas to less serious charges than the convicted charges,
reoffering the plea deal and allowing the court to exercise discretion is the appropriate remedy.
Therefore, in a case where more serious charges or mandatory sentences limit a judge’s discretion
in sentencing, the original plea offer must be remade and reconsidered by the trial court. 4
The court should be mindful that the “AEDPA erects a formidable barrier to federal
habeas relief for prisoners whose claims have been adjudicated in state court. AEDPA requires a
‘state prisoner [to] show that the state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was error . . . beyond possibility for fairminded
disagreement.’” Burt v. Titlow, 571 U.S. at 19-20; (citing Harrington v. Richter, 562 U.S. 86, 103
(2011)). In Burt v. Titlow, the Supreme Court found error in the Sixth Circuit’s conclusion that
the plea withdrawal was due to the fact the sentence recommendation exceeded the Michigan state
guideline range for second degree murder. The Sixth Circuit had reversed the Michigan Court of
Appeals conclusion that counsel provided effective assistance in advising petitioner, who claimed
innocence, to reject a plea agreement as a negotiation tactic to gain a more favorable plea deal. Id.
at 17, 20. The Michigan Court of Appeals found counsel’s “advice satisfied Strickland [and] fell

4

The trial judge suggested that the appropriate remedy in this case would be to sentence Petitioner as convicted but
without the application of mandatory life without parole. The judge explained that Petitioner would receive exactly
what he had expected when he rejected the plea offer and chose to proceed to trial.

30a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1633 Page 14 of 21

within the bounds of reasonableness under AEDPA, given that respondent was claiming innocence
and only days away from offering self-incriminating testimony in open court pursuant to a plea
agreement involving an above-average guidelines sentence.” Id. at 22. The Supreme Court
concluded that the Michigan Court of Appeals had reasonably determined that counsel provided
adequate advice leading to the withdrawal of the guilty plea and that finding could not be
overturned under the AEDPA.
In this case, the Michigan Court of Appeals agreed with the trial court that
Petitioner did not establish prejudice necessary to support his ineffective assistance of counsel
claim. “When deciding ineffective-assistance claims, courts need not address both components
of the inquiry ‘if the defendant makes an insufficient showing on one.’” Campbell v. United States,
364 F.3d 727, 730 (6th Cir. 2004) (quoting Strickland, 466 U.S. at 697). “If it is easier to dispose
of an ineffectiveness claim on the ground of lack of sufficient prejudice, which we expect will
often be so, that course should be followed.” Strickland, 466 U.S. at 697. The Michigan Court of
Appeals explained:
In this case, the parties concede that the first prong of the test for
ineffective assistance of counsel, that counsel’s performance was
deficient, has been met. In a situation where a defendant is convicted
after trial and receives a longer sentence than he or she would have
received if a pretrial plea bargain offer had been accepted, a
defendant can establish the second prong of the Strickland test,
prejudice, by showing a reasonable probability that if given proper
advise during the plea bargaining process he or she would have
accepted the prosecution’s plea offer. See McCauley, 287 Mich App
at 162-164. This is the prejudice standard employed by the trial court
in this case, and a critical component of the prejudice standard the
Supreme Court subsequently adopted for claims of ineffective
assistance during the plea bargaining process in Lafler. The Court
held that to show Strickland prejudice “[i]n the context of pleas a
defendant must show the outcome of the plea process would have
been different with competent advice.” Lafler, 132 S Ct at 1384.

31a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1634 Page 15 of 21

The Lafler Court expounded that in situations like the present case,
the prejudice alleged from ineffective assistance of counsel is
having to stand trial and
a defendant must show that but for the ineffective
advice of counsel there is a reasonable probability
that the plea offer would have been presented to the
court (i.e., that the defendant would have accepted
the plea and the prosecution would not have
withdrawn it in light of intervening circumstances),
that the court would have accepted its terms, and that
the conviction or sentence, or both, under the offer’s
terms would have been less severe than under the
judgment and sentence that in fact were imposed.
[Id., 132 S Ct at 1385.]
Thus, the Lafler Court’s expanded test for Strickland prejudice in
the case of a rejected plea offer requires a defendant to show that it
is reasonably probable that (1) defendant would have accepted the
plea offer, (2) the prosecution would not have withdrawn the plea
offer in light of intervening circumstances, (3) the trial court would
have accepted defendant’s plea under the terms of the bargain, and
(4) defendant’s conviction or sentence under the terms of the plea
would have been less severe than in fact were imposed. Here, the
trial court found after an evidentiary that defendant had not
established a reasonable probability that with proper advice he
would have accepted the prosecution’s final pretrial plea offer. This
is a factual finding that we review for clear error. McCauley, 287
Mich App at 164.
Generally, a trial court’s factual findings following a Ginther
hearing are entitled to deference. People v Grant, 470 Mich 477, 485
n 5; 684 NW2d 686 (2004). This is so because the trial court had the
opportunity to assess the credibility of the witnesses who appeared
before it. MCR 2.613(C); People v Dendel, 481 Mich 114, 130; 748
NW2d 859, amended 481 Mich 1201 (2008). Moreover, in this
situation, the trial court had the opportunity to observe the key
participants in the plea bargaining process—the prosecutor, defense
counsel, and defendant— throughout the pretrial, trial, and post-trial
proceedings. A finding is clearly erroneous when, although there is
evidence to support it, this Court, on the whole record, is left with a
definite and firm conviction that a mistake was made. Dendel, 481
Mich at 130.
Based on the whole record, we are not left with the definite and firm
conviction that the trial court made a mistake when it concluded that

32a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1635 Page 16 of 21

defendant had not established a reasonable probability that he would
have accepted the prosecution’s final pretrial plea offer with proper
advice regarding the mandatory sentence he faced if convicted at
trial. Rather, the record, together with the evidence and lack of
evidence presented at the Ginther hearing, supports the trial court’s
finding. First, defense counsel’s testimony established that
defendant knew his chances of success at trial were extremely small.
Second, although defense counsel erroneously used the sentence
guidelines to advise defendant regarding the potential sentence he
faced, defendant was told that if convicted he likely would be
sentenced to such a lengthy term of years that it would be
tantamount to a life sentence. Given this advice, defendant still
chose to reject a plea bargain that would have capped his maximum
prison term at 22 ½ years. Third, defendant failed to present his own
testimony, or even an affidavit in which he stated that with proper
advice on the mandatory sentence he faced he would have accepted
the prosecution’s final pretrial plea offer. Although defense counsel
testified he believed defendant would have accepted the final plea
offer with proper advice and if counsel had recommended it, the trial
court clearly accorded little weight to defense counsel’s after-thefact speculation. Finally, the trial court based its finding that it was
unlikely that defendant would have accepted the prosecution’s final
pretrial plea offer even with proper advice regarding the mandatory
sentence he faced if convicted at trial on the subsidiary finding that
defendant likely would have been unwilling or unable to provide a
factual basis for a guilty plea required by MCR 6.302(D)(1).
This last subsidiary finding is supported by the record and deserves
further discussion. MCR 6.302(D)(1) provides: “If the defendant
pleads guilty, the court, by questioning the defendant, must establish
support for a finding that the defendant is guilty of an offense
charged or the offense to which the defendant is pleading.” Here,
defendant maintained his innocence throughout the proceedings; he
testified at trial that he did not commit the charged offenses and
maintained his innocence in posttrial proceedings. Defendant even
failed to submit an affidavit expressing his willingness to plead
guilty to two counts of third-degree CSC as offered at the final
pretrial. Although the final pretrial memorandum states the
prosecution’s offer was ‘plead to 2 cts of csc & habitual 2nd,’ there
is no evidence this offer was anything other than a reduced-charge
guilty plea offer. Further, whether to accept a no contest plea is
discretionary with the trial court. MCR 6.301(B). The trial court
made it plain while ruling on defendant’s motion that the facts of
this case did not fit within the narrow circumstances in which the
court would accept a no contest plea: loss of memory caused by
intoxication or injury. But a no contest plea is the only plea bargain

33a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1636 Page 17 of 21

offer the record indicates defendant was willing to accept, on the
first day of trial. Even defendant’s trial counsel did not know
whether defendant would have pleaded guilty rather than no contest
under the plea offer made the first day of trial if the trial court had
waived the deadline for plea bargains.
In sum, the record supports the trial court’s factual finding that it is
not reasonably likely that defendant would have accepted the
prosecution’s final pretrial plea offer even if he had been properly
advised of the statutory mandatory life sentence if convicted at trial.
We cannot say that the trial court’s finding is clearly erroneous.
LeBlanc, 465 Mich at 579; MCR 2.613(C). Consequently,
defendant has failed to establish the prejudice prong of his
ineffective assistance of counsel claim.
Michigan Court of Appeals decision at 6-7 (PageID.1357-1360).
The Michigan Court of Appeals determined that counsel’s performance fell below
an objective standard of reasonableness during the plea process when he failed to properly inform
Petitioner that he faced mandatory life imprisonment without parole if he was convicted at trial.
Nevertheless, the Michigan Court of Appeals found that Petitioner failed to show prejudice,
because Petitioner failed to show that he would have accepted one of the earlier plea deals even if
he was informed about the mandatory lifetime sentence without the possibility of parole. The
Michigan Court of Appeals stated that Petitioner could not establish prejudice due to the fact that
he continued to maintain his innocence and would not have likely accepted the plea deal:
Because three of the four elements to establish prejudice require an
after-the-fact determination of what the principals engaged in the
plea-bargaining process would likely have done under different
circumstances, and because of the trial court’s own participation and
ability to observe the other participants, the trial court is in the best
position to make these determinations. Consequently, we believe
this Court has correctly determined that the trial court’s findings of
what the various plea bargaining actors would have done in different
scenarios is a factual determination reviewed for clear error. See
McCauley, 287 Mich App at 164. Moreover, even if we reviewed
the trial court’s finding de novo, we would hold that the objective
circumstances support the trial court’s determination that defendant
did not establish prejudice because he did not establish a reasonable

34a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1637 Page 18 of 21

likelihood that he would have accepted the prosecution’s plea offer
even with proper advice.
Michigan Court of Appeals decision at Footnote 6 (PageID.1358-1359).
This case differs from Lafler in that Petitioner did not have a basic understanding
of the penalties he was facing because of ineffective assistance of counsel. 5 Without this
knowledge, Petitioner could not evaluate any plea offer or make an informed decision on an offer.
This is a fundamental defect that prejudiced Petitioner. Petitioner did accept a plea offer the day
of trial without knowing the actual penalty he was facing. This is clear evidence that he would
have reached a plea deal much earlier had he known the penalty he was facing.
Deference to state court conclusions mandates that the federal court do more than
“simply disagree with the state court before rejecting its factual determinations. Instead, it must
conclude that the state court’s findings lacked even ‘fair support’ in the record.” Marshall v.
Lonberger, 459 U.S. 422, 432. “For the present purposes, it is enough to reiterate ‘that a statecourt factual determination is not unreasonable merely because the federal habeas court would
have reached a different conclusion in the first instance.’” Burt v. Titlow, 571 U.S. 12, 18 (2013).
Petitioner prepared an affidavit in response to the Michigan Court of Appeals decision which states
that with effective counsel he would have entered into a plea bargain that the trial judge would
have accepted. However, the Michigan Court of Appeals found that the weight of the evidence in
the record shows that Petitioner, even with knowledge of the mandatory life sentence without
parole, would likely still have rejected the plea bargain offers and maintained his innocence. This
was pure speculation and ignores the fundamental unfairness of what occurred.

5

The trial court erred in failing to inform the Petitioner of the mandatory life sentence. This should have occurred at
a very early stage of the proceedings. The right to notice of accusation may not be infringed by a state court because
it is so fundamental to procedural due process. In re Oliver, 333 U.S. 257, 273 (1948); Cole v. Arkansas, 333 U.S.
196, 201 (1948); Rabe v. Washington, 405 U.S. 313 (1972).

35a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1638 Page 19 of 21

Petitioner argues that the Michigan Court of Appeals’ decision violates clearly
established law as stated in the Lafler decision. Petitioner asserts that the Michigan Court of
Appeals’ decision is unreasonable due to the conclusions that Petitioner chose to proceed to trial
despite knowing that he was unlikely to succeed. Petitioner argues that without knowing that he
was facing a mandatory sentence of life without parole he could not have properly evaluated the
plea offers at the time that they were made to him.
At the evidentiary hearing in the trial court, counsel for Petitioner testified that the
first offer was for Petitioner to plead to one count of CSC I. Petitioner turned down that offer.
Although it was unknown to everyone involved, that offer still exposed Petitioner to mandatory
life without parole. (ECF No. 10-11). Counsel indicated that he believed that the case was very
close to resolution by plea agreement because he was negotiating back and forth with the
prosecutor. (PageID.1253). Those negotiations would have been fundamentally different had
Petitioner and his counsel known the penalty he was facing. Counsel had informed Petitioner that
his minimum sentence prior to any habitual offender enhancement would fall somewhere between
11 to 24 years and that his maximum sentence could exceed life imprisonment. (PageID.1266,
1277, 1278-1279, 1296). Counsel explained that Petitioner was aware that he would likely be
found guilty at trial and that his is chance of acquittal was slim.
[Prosecutor] So during -- during all the time that you spent with the
Defendant, he never told you he wanted to plead guilty?
[Defense counsel] Those exact words were not used. Alan was
amendable to a plea. And I'll tell you why I say this. We knew that
a jury would not acquit a registered sex offender, unless our proofs
went in perfectly. I believe our prospects at trial, as I told him, were
an extreme long shot. We were talking three to five percent. I mean,
it was -- it was mission impossible.
[Prosecutor] And he understood that?

36a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1639 Page 20 of 21

[Defense counsel] He understood his prospects at trial were difficult.
(PageID.1281-1282).
This court’s role is to decide whether the Michigan Court of Appeals’ determination
that Petitioner failed to establish prejudice was a reasonable decision under the AEDPA and
whether Petitioner presented enough evidence to rebut “the state court’s factual finding ‘by clear
and convincing evidence.’” Burt v. Titlow, 571 U.S. at 18. As recognized, this is a difficult
standard to meet. Petitioner argues that he should have the opportunity to accept the government’s
July 30, 2010, 22 ½ year maximum term of imprisonment plea offer with full knowledge of the
maximum penalty that he faced at the time he was charged with the crimes. An appropriate remedy
is to “restore the status quo that existed before counsel’s deficient performance” caused Petitioner
to reject the July 30, 2010, plea offer. See Garzia, 586 U.S. at slip op 13-14.
In the opinion of the undersigned, Petitioner has shown that the Michigan Court of
Appeals’ decision resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law as determined by the Supreme Court of the United
States; or resulted in a decision that was based upon an unreasonable determination of the facts in
light of the evidence presented in the state court proceedings.
In summary, the undersigned concludes that Petitioner’s ineffective assistance of
counsel claim is established and therefore recommends that this Court grant the petition. In
addition, it is recommended that the Court order that Petitioner be given the opportunity to accept
the July 30, 2010, plea offer.
NOTICE TO PARTIES: Objections to this Report and Recommendation must be
served on opposing parties and filed with the Clerk of the Court within fourteen (14) days of receipt
of this Report and Recommendation. 28 U.S.C. § 636(b)(1)(C); Fed. R. Civ. P. 72(b); W.D. Mich.

37a

Case 2:15-cv-00186-GJQ-TPG ECF No. 30 filed 02/28/19 PageID.1640 Page 21 of 21

LCivR 72.3(b). Failure to file timely objections constitutes a waiver of any further right to appeal.
United States v. Walters, 638 F.2d 947 (6th Cir. 1981). See also Thomas v. Arn, 474 U.S. 140
(1985).

/s/ Timothy P. Greeley
TIMOTHY P. GREELEY
UNITED STATES MAGISTRATE JUDGE
Dated: February 28, 2019

38a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-16 filed 06/21/16 PageID.1483 Page 1 of 51

April 17, 2015

146357

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v

SC: 146357
COA: 300460
Grand Traverse CC:
10-011026-FC

ALAN STARR TROWBRIDGE,
Defendant-Appellant.
_________________________________________/
On April 7, 2015, the Court heard oral argument on the application for leave to
appeal the September 25, 2012 judgment of the Court of Appeals. On order of the Court,
the application is again considered, and it is DENIED, because we are not persuaded that
the question presented should be reviewed by this Court.

39a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1354 Page 1 of 129

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
September 25, 2012

Plaintiff-Appellee,
v

No. 300460
Grand Traverse Circuit Court
LC No. 10-011026-FC

ALAN STARR TROWBRIDGE,
Defendant-Appellant.
Before: MARKEY, P.J., and BECKERING and M. J. KELLY, JJ.
PER CURIAM.

Defendant appeals by right his convictions after a jury trial of three counts of first-degree
criminal sexual conduct (CSC I), MCL 750.520b(1)(a). Defendant was sentenced as a second
offender, MCL 769.10, to three terms of life in prison without possibility of parole, MCL
750.520b(2)(c). We affirm.
I. PERTINENT FACTS AND PROCEEDINGS
In 2010, defendant was arrested and charged with five counts of CSC I after his six-yearold daughter disclosed that defendant had inserted his penis into her vagina, mouth, and anus.1
Prior to this arrest, defendant had previously pleaded guilty to fourth-degree CSC for an incident
involving a five-year-old boy. Because of this prior conviction, defendant faced a mandatory
sentence of life without possibility of parole if convicted of CSC I. MCL 750.520b(2)(c), as
amended by 2006 PA 165 and 2006 PA 169. The charging documents, however, did not
mention the mandatory sentence of life without parole. Neither the parties nor the trial court
were aware of the mandatory sentence provision until after the conclusion of defendant’s trial.
Before trial, the prosecution made several plea offers to defendant. In May 2010, the
prosecution offered to allow defendant to plead guilty to one count of CSC I. Defendant rejected
that offer and, on July 30, 2010, at a final pretrial, the prosecution offered a plea agreement
allowing defendant to plead guilty to two counts of third-degree CSC as a second offender.

1

Two charges were dismissed at trial when the victim failed to testify about them.
-140a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1355 Page 2 of 129

Defendant rejected this offer as well.2 On the first day of trial, August 9, 2010, the parties
informed the court they had reached a plea agreement for defendant to plead no contest to three
counts of third-degree CSC with no habitual offender enhancement. The trial court ruled it
would not waive its policy of not entertaining a plea to a reduced charge after the final pretrial.
At the conclusion of defendant’s trial, the jury found defendant guilty of all three charged
counts of CSC I submitted to them. At sentencing, the trial court judge informed the parties that
he had discovered that MCL 750.520b(2)(c) mandated that defendant be sentenced to life
without parole for all three counts of first-degree CSC. Defendant moved to adjourn the
sentencing to brief the effect of lack of notice to defendant of the mandatory sentence. At the
next hearing, the trial court sentenced defendant to three terms of life without parole.
Following sentencing, defendant appealed to this Court and moved to remand to the trial
court for an evidentiary hearing to make a record regarding his claim of ineffective assistance of
counsel,3 which this Court granted.4 At the evidentiary hearing in the trial court, defendant’s
trial counsel testified that he was unaware that defendant was facing a mandatory sentence of life
without parole until the original sentencing date and that he had advised defendant throughout
the plea bargaining process about potential sentences using the sentencing guidelines.5 Trial
counsel further testified that he told defendant that his chances of succeeding at trial were “three
to five percent” and that, if he was convicted, defendant faced a minimum prison sentence of
thirty years and a maximum sentence that could exceed natural life. Trial counsel also testified
that he told defendant that sex offenders typically serve close to their maximum sentence and are
rarely paroled early. Trial counsel also testified that in his opinion, if defendant were aware he
would be sentenced to life without parole if convicted at trial, defendant would have accepted the
final pretrial offer if counsel had recommended it. Defense counsel did not say whether he
recommended that defendant accept the July 30 plea offer and acknowledged it was defendant’s
choice to proceed to trial. Defense counsel further testified he did not know whether defendant
would have pleaded guilty rather than no contest under the plea offer made the first day of trial if
the trial court had waived the plea cut-off date but would not accept a no-contest plea.
Appellate counsel also filed his own affidavit that averred defendant stated that, “if he
had been properly advised by trial counsel regarding the penalty he faced, he likely would have
accepted the prosecution’s second plea offer (a plea to two counts of CSC 3rd as an habitual

2

The one-page pretrial memorandum signed by the prosecutor, defense counsel, and defendant
states: “The Defendant understands that the Court will not accept a plea to a reduced charge after
the close of the Final Conference.”
3

See People v Ginther, 390 Mich 436, 443-444; 212 NW2d 922 (1973).

4

People v Trowbridge, unpublished order of the Court of Appeals, entered June 21, 2011
(Docket No. 300460).
5

As stated in their instructions, “the guidelines are not applicable to offenses for which the
applicable statute establishes a mandatory determinate penalty or a mandatory penalty of life
imprisonment for conviction of the offense.” See MCL 769.34(5).
-241a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1356 Page 3 of 129

offender second) . . . .” But defendant did not testify at the hearing and he did not present his
own affidavit that he would have pleaded guilty pursuant to the July 30 offer if he knew of the
mandatory life sentence without parole if convicted after trial on the charged offenses.
At the conclusion of the evidentiary hearing, the trial court stated its preference for
issuing an oral ruling from the bench and scheduled the matter for that purpose. On July 27,
2011, the trial court stated on the record its reasoning for denying defendant relief. Before doing
so, however, appellate counsel waived defendant’s presence. In reviewing the facts, the court
noted that defendant had rejected the July 30 final pretrial plea offer, which would have capped
his maximum sentence at 22 ½ years in prison. Regarding the plea offer the on the first day of
trial, the court observed, “I didn’t even consider tolerating that, we won’t do that” as matter of
policy to manage the court’s docket. The trial court also added it would not accept a no contest
plea unless justified because of actual loss of memory. Consequently, the court focused of the
July 30 final pretrial plea offer to determine defendant’s ineffective assistance of counsel claim.
In ruling on defendant’s claim that he was denied the effective assistance of counsel
during the plea bargaining phase of the proceedings, the trial court applied the familiar twoprong test of Strickland v Washington, 466 US 668; 104 S Ct 2052; 80 L Ed 2d 674 (1984),
which this Court applied in People v McCauley, 287 Mich App 158, 162; 782 NW2d 520 (2010):
To establish ineffective assistance of counsel, a defendant must show (1)
that his attorney’s performance was objectively unreasonable in light of prevailing
professional norms, and (2) that, but for his attorney's error or errors, a different
outcome reasonably would have resulted. These same standards apply where a
defendant’s ineffective assistance of counsel claim is based on counsel’s failure to
properly inform the defendant of the consequences of accepting or rejecting a
prosecutor’s plea offer. [Citations omitted.]
The trial court first noted that the only evidence before it of what transpired between
defendant and trial counsel was the latter’s testimony. And, the court found that counsel’s
testimony regarding what defendant might have done with proper advice on the mandatory
sentence required by the statute was after-the-fact opinion. But the trial court found that the first
prong of Strickland test had been satisfied because trial counsel’s “performance was objectively
unreasonable in light of prevailing professional norms.” Regarding the second prong, the court
reasoned that defendant was required to show a reasonable probability of a different result, i.e.
“but for the mistake [of] failing to advise the defendant of this mandatory minimum, that the
result would have been different.” The trial court ruled that defendant had not satisfied the
second prong of the Strickland test, because the court found “it almost certain that the defendant
would have made the same decision had he known about the mandatory life sentence.” The
court reasoned that trial counsel had advised defendant he was facing a sentence within
guidelines of a minimum of 30 years, with a strong possibility of an upward departure because of
his prior conviction. The court had also noted that trial counsel had advised defendant that his
chances the chances of success at trial were slim, and further reasoned that defendant chose to go
to trial knowing he risked being sentenced to what would amount to a life sentence.
Consequently, the trial court found that even with proper advice, “[i]t is not reasonably probable
that [defendant] would have accepted the plea at [the] final [pretrial] conference.”
-342a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1357 Page 4 of 129

In a written addendum to his oral ruling, the trial court set forth an additional reason why
“defendant is unlikely to have accepted [the final pretrial offer] even had he received proper
advice concerning the penalty for the offenses charged.” Specifically, the trial court found that
defendant would not have been willing or able to state a factual basis for accepting a guilty plea:
Throughout the proceedings, the Defendant has maintained his innocence.
He testified under oath that this offense did not happen. In the offender’s version
of the offense in the presentence report, he reiterates his innocence. And his
attorney reiterated his claims of innocence during allocution. That he would admit
the truth of what had been charged, including sexual penetration of his five-yearold daughter (which would have been required to plead guilty to criminal sexual
conduct 3rd degree), seems unlikely. Yet, such an admission would have been
required if Defendant wished to accept the Prosecutor’s plea offer at final
conference. MCR 6.302(D)(1).
Defendant now appeals, asserting ineffective assistance of counsel, entitlement to a
mistrial, and a claim of cruel and unusual punishment.
II. ANALYSIS
A. INEFFECTIVE ASSISTANCE OF COUNSEL
Defendant first claims that he received ineffective assistance of counsel during plea
bargaining prior to his trial. Whether a person has been denied the effective assistance of
counsel is a mixed question of fact and constitutional law. People v LeBlanc, 465 Mich 575,
579; 640 NW2d 246 (2002). We review the trial court’s findings of fact for clear error, and
questions of constitutional law de novo. Id.
Defendant argues that his trial counsel’s failure to inform him that he was facing a
mandatory life sentence without possibility of parole constituted ineffective assistance of
counsel. As the trial court recognized, in order to prevail on his claim of ineffective assistance
during pretrial plea bargaining, “defendant must show (1) that his attorney’s performance was
objectively unreasonable in light of prevailing professional norms, and (2) that, but for his
attorney's error or errors, a different outcome reasonably would have resulted.” McCauley, 287
Mich App at 162. This analysis also applies to counsel’s advice during the plea bargaining
process. Id., citing Hill v Lockhart, 474 US 52, 57-59; 106 S Ct 366; 88 L Ed 2d 203 (1985).
Although decided after the trial court’s ruling in this case, the two-prong Strickland standard was
reaffirmed as applicable to claims of ineffective assistance of counsel during plea bargaining in
Lafler v Cooper, 566 US ___; 132 S Ct 1376, 1384; 182 L Ed 2d 398 (2012).
In this case, the parties concede that the first prong of the test for ineffective assistance of
counsel, that counsel’s performance was deficient, has been met. In a situation where a
defendant is convicted after trial and receives a longer sentence than he or she would have
received if a pretrial plea bargain offer had been accepted, a defendant can establish the second
prong of the Strickland test, prejudice, by showing a reasonable probability that if given proper
advise during the plea bargaining process he or she would have accepted the prosecution’s plea
offer. See McCauley, 287 Mich App at 162-164. This is the prejudice standard employed by the
-443a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1358 Page 5 of 129

trial court in this case, and a critical component of the prejudice standard the Supreme Court
subsequently adopted for claims of ineffective assistance during the plea bargaining process in
Lafler. The Court held that to show Strickland prejudice “[i]n the context of pleas a defendant
must show the outcome of the plea process would have been different with competent advice.”
Lafler, 132 S Ct at 1384.
The Lafler Court expounded that in situations like the present case, the prejudice alleged
from ineffective assistance of counsel is having to stand trial and
a defendant must show that but for the ineffective advice of counsel there is a
reasonable probability that the plea offer would have been presented to the court
(i.e., that the defendant would have accepted the plea and the prosecution would
not have withdrawn it in light of intervening circumstances), that the court would
have accepted its terms, and that the conviction or sentence, or both, under the
offer’s terms would have been less severe than under the judgment and sentence
that in fact were imposed. [Id., 132 S Ct at 1385.]
Thus, the Lafler Court’s expanded test for Strickland prejudice in the case of a rejected plea offer
requires a defendant to show that it is reasonably probable that (1) defendant would have
accepted the plea offer, (2) the prosecution would not have withdrawn the plea offer in light of
intervening circumstances, (3) the trial court would have accepted defendant’s plea under the
terms of the bargain, and (4) defendant’s conviction or sentence under the terms of the plea
would have been less severe than in fact were imposed. Here, the trial court found after an
evidentiary that defendant had not established a reasonable probability that with proper advice he
would have accepted the prosecution’s final pretrial plea offer. This is a factual finding that we
review for clear error. McCauley, 287 Mich App at 164.6

6

Because a finding that defendant would not likely have accepted a plea offer even with proper
advice is tantamount to finding that the defendant has not established prejudice, it could be
argued this determination is reviewed de novo on appeal. See People v Dendel, 481 Mich 114,
130, 132 n 18; 748 NW2d 859, amended 481 Mich 1201 (2008) (noting that a trial court’s
determination regarding Strickland prejudice is reviewed de novo on appeal and that the test for
prejudice is an objective one to which appellate courts should not simply defer to the trial court).
But Lafler makes plain that a defendant’s likely response to proper advice is but one of a fourpart test to establish prejudice. Because three of the four elements to establish prejudice require
an after-the-fact determination of what the principals engaged in the plea-bargaining process
would likely have done under different circumstances, and because of the trial court’s own
participation and ability to observe the other participants, the trial court is in the best position to
make these determinations. Consequently, we believe this Court has correctly determined that
the trial court’s finding of what the various plea bargaining actors would have done in different
scenarios is a factual determination reviewed for clear error. See McCauley, 287 Mich App at
164. Moreover, even if we reviewed the trial court’s finding de novo, we would hold that the
objective circumstances support the trial court’s determination that defendant did not establish
-544a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1359 Page 6 of 129

Generally, a trial court’s factual findings following a Ginther7 hearing are entitled to
deference. People v Grant, 470 Mich 477, 485 n 5; 684 NW2d 686 (2004). This is so because
the trial court had the opportunity to assess the credibility of the witnesses who appeared before
it. MCR 2.613(C); People v Dendel, 481 Mich 114, 130; 748 NW2d 859, amended 481 Mich
1201 (2008). Moreover, in this situation, the trial court had the opportunity to observe the key
participants in the plea bargaining process—the prosecutor, defense counsel, and defendant—
throughout the pretrial, trial, and post-trial proceedings. A finding is clearly erroneous when,
although there is evidence to support it, this Court, on the whole record, is left with a definite and
firm conviction that a mistake was made. Dendel, 481 Mich at 130.
Based on the whole record, we are not left with the definite and firm conviction that the
trial court made a mistake when it concluded that defendant had not established a reasonable
probability that he would have accepted the prosecution’s final pretrial plea offer with proper
advice regarding the mandatory sentence he faced if convicted at trial. Rather, the record,
together with the evidence and lack of evidence presented at the Ginther hearing, supports the
trial court’s finding. First, defense counsel’s testimony established that defendant knew his
chances of success at trial were extremely small. Second, although defense counsel erroneously
used the sentence guidelines to advise defendant regarding the potential sentence he faced,
defendant was told that if convicted he likely would be sentenced to such a lengthy term of years
that it would be tantamount to a life sentence. Given this advice, defendant still chose to reject a
plea bargain that would have capped his maximum prison term at 22 ½ years. Third, defendant
failed to present his own testimony, or even an affidavit in which he stated that with proper
advice on the mandatory sentence he faced he would have accepted the prosecution’s final
pretrial plea offer. Although defense counsel testified he believed defendant would have
accepted the final plea offer with proper advice and if counsel had recommended it, the trial
court clearly accorded little weight to defense counsel’s after-the-fact speculation. Finally, the
trial court based its finding that it was unlikely that defendant would have accepted the
prosecution’s final pretrial plea offer even with proper advice regarding the mandatory sentence
he faced if convicted at trial on the subsidiary finding that defendant likely would have been
unwilling or unable to provide a factual basis for a guilty plea required by MCR 6.302(D)(1).
This last subsidiary finding is supported by the record and deserves further discussion.
MCR 6.302(D)(1) provides: “If the defendant pleads guilty, the court, by questioning the
defendant, must establish support for a finding that the defendant is guilty of the offense charged
or the offense to which the defendant is pleading.” Here, defendant maintained his innocence
throughout the proceedings; he testified at trial that he did not commit the charged offenses and
maintained his innocence in posttrial proceedings. Defendant even failed to submit an affidavit
expressing his willingness to plead guilty to two counts of third-degree CSC as offered at the
final pretrial. Although the final pretrial memorandum states the prosecution’s offer was “plead
to 2 cts of csc 3rd & habitual 2nd,” there is no evidence this offer was anything other than a
reduced-charge guilty plea offer. Further, whether to accept a no contest plea is discretionary
with the trial court. MCR 6.301(B). The trial court made it plain while ruling on defendant’s
prejudice because he did not establish a reasonable likelihood that he would have accepted the
prosecution’s plea offer even with proper advice.
7

See n 3, supra.
-645a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1360 Page 7 of 129

motion that the facts of this case did not fit within the narrow circumstances in which the court
would accept a no contest plea: loss of memory caused by intoxication or injury. But a no
contest plea is the only plea bargain offer the record indicates defendant was willing to accept,
on the first day of trial. Even defendant’s trial counsel did not know whether defendant would
have pleaded guilty rather than no contest under the plea offer made the first day of trial if the
trial court had waived the deadline for plea bargains.
In sum, the record supports the trial court’s factual finding that it is not reasonably likely
that defendant would have accepted the prosecution’s final pretrial plea offer even if he had been
properly advised of the statutory mandatory life sentence if convicted at trial. We cannot say
that the trial court’s finding is clearly erroneous. LeBlanc, 465 Mich at 579; MCR 2.613(C).
Consequently, defendant has failed to establish the prejudice prong of his ineffective assistance
of counsel claim. Lafler, 132 S Ct at 1384; McCauley, 287 Mich App at 162.
B. REBUTTAL EVIDENCE AND MISTRIAL
Defendant next argues that the trial court erred in permitting certain rebuttal evidence and
in denying his motion for mistrial on the same grounds. We review both a trial court’s admission
of rebuttal evidence and its decision whether to grant a mistrial for an abuse of discretion.
People v Figgures, 451 Mich 390, 398; 547 NW2d 673 (1996); People v Ortiz–Kehoe, 237 Mich
App 508, 512-513; 603 NW2d 802 (1999).
At trial, the prosecution called computer forensics specialist Todd Heller, who testified
that he examined defendant’s computer and that, when searching defendant’s internet history, he
came across four sites containing child pornography with names such as
“supertightvirgins.com,” and “incestmovs.com.” He further testified to finding evidence of
searches for terms such as “young model,” “young nude models,” “young model child,” and
“child model nude.” Heller also testified that a program that allows for file sharing, had been
installed on the computer, and that defendant had used an external hard drive and thumb drive
for additional storage. Heller further testified that no child pornography was actually found on
the computer and that the external hard drive and thumb drive were never recovered.
During the presentation of defense witnesses, defense counsel called defendant’s exgirlfriend, Shakira Puckett. Puckett testified that she lived with defendant and that they shared a
computer for some time before Puckett obtained her own. Puckett also testified that she was an
art student and had conducted online searches for young models and nude models for her art
projects. She testified that she viewed pornography on defendant’s computer, including child
pornography featuring teenage girls, and that she was interested in incest and “super tight
virgins.” However, she also testified that she was not interested in pornography featuring preteen girls. Defendant also testified and denied viewing or possessing child pornography.
At the close of defendant’s proofs, the prosecution recalled Heller, over defense counsel’s
objection, to rebut Puckett’s testimony. Heller testified upon direct examination that he
examined Puckett’s computer in addition to defendant’s computer and that Puckett’s computer
contained some adult pornography, but no child pornography. Upon re-direct examination, the
following exchange concerning defendant’s computer occurred:

-746a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1361 Page 8 of 129

Q. Okay. And you were able to find some incomplete files, is that
correct?
A. Downloaded incomplete files, correct.
Q. What did those reference?
A. One of them were, title was, new PTHC, which is a common
abbreviation in the child porn world as preteen hard core, that’s a video. And
PTHC is preteen hard core. You have PTSC, which is preteen soft core, that is
more child posing nude. Hard core is more engaging in a sexual act with
themselves, another child or with an adult.
After Heller’s rebuttal testimony, out of the presence of the jury, defense counsel moved for a
mistrial on the grounds that Heller’s testimony exceeded the proper bounds of rebuttal testimony,
and was an improper attempt by the prosecution to get the last word in with the jury. The trial
court denied the motion, finding that the testimony directly rebutted Puckett’s testimony that she
was the one who viewed pornography on defendant’s computer because she had stated she had
no interest in pre-teen children and the incomplete file was a PTHC file.
“A mistrial should be granted only for an irregularity that is prejudicial to the rights of the
defendant and impairs his ability to get a fair trial.” Ortiz–Kehoe, 237 Mich App at 514.
Accordingly, a finding of an “irregularity” is necessary to establish a proper basis for a mistrial.
In this case, defendant alleges that Heller’s rebuttal testimony exceeded the scope of proper
rebuttal evidence and, thus, was irregular. Rebuttal testimony is that used to contradict, repel,
explain, or disprove evidence produced by the other party, tending to directly weaken or impeach
the same. Figgures, 451 Mich at 399. Rebuttal is limited to the refutation of relevant and
material evidence, that is, evidence bearing on an issue properly raised in a case. People v
Bennett, 393 Mich 445, 449; 224 NW2d 840 (1975). Its relevance should be tested by whether it
is justified by the evidence which it is offered to rebut. Nolte v Port Huron Area Sch Dist Bd of
Ed, 152 Mich App 637, 645; 394 NW2d 54 (1986).
Here, Heller’s testimony directly contradicted that of Puckett, who claimed that any
pornographic searches or downloads on defendant’s computer had been the result of her activity
on defendant’s computer. Heller’s testimony showed that Puckett’s computer had no evidence of
searches similar to those found on defendant’s computer and that the pornography on her
computer was all adult in nature. Further, Heller’s testimony undermined Puckett’s testimony by
establishing that there was evidence of an attempted download of preteen hardcore pornography;
a type of pornography Puckett had denied an interest in. Moreover, the circumstantial evidence
that defendant viewed or possessed incest and child pornography was relevant for the purposes
of showing defendant’s possible intent in assaulting his daughter and also corroborated the
testimony of defendant’s daughter, who said that defendant had showed her incestuous child
pornography. Puckett’s testimony undermined that circumstantial evidence and, because
Heller’s testimony weakened Puckett’s testimony, Heller’s testimony was therefore proper
rebuttal evidence. Consequently, the trial court did not abuse its discretion admitting the rebuttal
evidence or denying defendant’s motion for a mistrial.

-847a

Case 2:15-cv-00186-GJQ-TPG ECF No. 10-15 filed 06/21/16 PageID.1362 Page 9 of 129

C. CRUEL AND UNUSUAL PUNISHMENT
Defendant’s final argument is that his sentence of mandatory life imprisonment without
possibility of parole is cruel and unusual punishment. Defendant failed to assert below this
challenge to MCL 750.520b(2)(c). Therefore, this claim is not preserved for appellate review,
and defendant is entitled to relief only upon a showing of the plain error affected his substantial
rights. People v Carines, 460 Mich 750, 763-764; 597 NW2d 130 (1999).
Michigan’s Constitution protects against cruel or unusual punishment, i.e., sentences that
are grossly disproportionate. People v Bullock, 440 Mich 15, 32; 485 NW2d 866 (1992). If
punishment “passes muster under the state constitution, then it necessarily passes muster under
the federal constitution.” People v Nunez, 242 Mich App 610, 618 n 2; 619 NW2d 550 (2000).
To determine if a punishment is cruel or unusual, this Court looks to the gravity of the offense
and the harshness of the penalty, comparing the penalty to those imposed for other crimes in this
state as well as the penalty imposed for the same offense by other states and considering the goal
of rehabilitation. People v Poole, 218 Mich App 702, 715; 555 NW2d 485 (2000).
This Court has already considered this issue and concluded that the mandatory sentence
in MCL 750.520b(2)(c) does not constitute cruel and/or unusual punishment. People v Brown,
294 Mich App 377, 389-392; 811 NW2d 531 (2011). We are bound to follow Brown until it is
reversed or modified by our Supreme Court or a special panel of this Court. MCR 7.215(J)(1).
Moreover, we find the reasoning of Brown is sound. The sentence imposed is not unprecedented
in this state or unusual in light of the punishment for similar crimes in other states. Given the
severity of defendant’s crimes, the mandatory sentence imposed under MCL 750.520b(2)(c) does
not constitute cruel and/or unusual punishment.
We affirm.

/s/ Jane E. Markey
/s/ Jane M. Beckering
/s/ Michael J. Kelly

-948a

